<html>
<title> - AERIAL COMMON SENSOR PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-121]
 
                      AERIAL COMMON SENSOR PROGRAM

                               __________

                             JOINT HEARING

                               BEFORE THE

               TACTICAL AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

            TECHNICAL AND TACTICAL INTELLIGENCE SUBCOMMITTEE

                                 OF THE

               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 20, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                    U.S. GOVERNMENT PRINTING OFFICE
33-589                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
               TACTICAL AIR AND LAND FORCES SUBCOMMITTEE

                       One Hundred Ninth Congress

                  CURT WELDON, Pennsylvania, Chairman
HOWARD P. ``BUCK'' McKEON,           NEIL ABERCROMBIE, Hawaii
    California                       IKE SKELTON, Missouri
JIM GIBBONS, Nevada                  JOHN SPRATT, South Carolina
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
FRANK A. LoBIONDO, New Jersey        LANE EVANS, Illinois
JEB BRADLEY, New Hampshire           ADAM SMITH, Washington
MICHAEL TURNER, Ohio                 MIKE McINTYRE, North Carolina
MICHAEL CONAWAY, Texas               ROBERT A. BRADY, Pennsylvania
TERRY EVERETT, Alabama               STEVE ISRAEL, New York
ROSCOE G. BARTLETT, Maryland         JIM COOPER, Tennessee
WALTER B. JONES, North Carolina      KENDRICK B. MEEK, Florida
JIM RYUN, Kansas                     TIM RYAN, Ohio
W. TODD AKIN, Missouri               G.K. BUTTERFIELD, North Carolina
J. RANDY FORBES, Virginia            DAN BOREN, Oklahoma
JOE WILSON, South Carolina
BILL SHUSTER, Pennsylvania
                 John Wason, Professional Staff Member
               William Natter, Professional Staff Member
                     Benjamin Kohr, Staff Assistant

                                 ------                                

            TECHNICAL AND TACTICAL INTELLIGENCE SUBCOMMITTEE

                  HEATHER WILSON, New Mexico, Chairman
TERRY EVERETT, Alabama, Vice         ANNA ESHOO, California, Ranking 
    Chairman                             Member
ELTON GALLEGLY, California           ROBERT (BUD) CRAMER, Jr., Alabama
MAC THORNBERRY, Texas                RUSH D. HOLT, New Jersey
JOHN McHUGH, New York                C.A. DUTCH RUPPERSBERGER, Maryland
               Kathleen Reilly, Professional Staff Member
                Pamela Moore, Professional Staff Member
                     Curtis Flood, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Thursday, October 20, 2005, Aerial Common Sensor Program.........     1

Appendix:

Thursday, October 20, 2005.......................................    33
                              ----------                              

                       THURSDAY, OCTOBER 20, 2005
                      AERIAL COMMON SENSOR PROGRAM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Ranking 
  Member, Tactical Air and Land Forces Subcommittee..............     3
Weldon, Hon. Curt Weldon, a Representative from Pennsylvania, 
  Chairman, Tactical Air and Land Forces Subcommittee............     1
Wilson, Hon. Heather, a Representative from New Mexico, 
  Chairwoman, Technical and Tactical Intelligence Subcommittee...     3

                               WITNESSES

Landon, John R., Deputy to the Assistant Secretary of Defense for 
  Command, Control, Communications, Intelligence, Surveillance, 
  Reconnaissance, and IT Acquisition Programs, Department of 
  Defense; Hon. Claude M. Bolton, Jr., Assistant Secretary of the 
  Army for Acquisition, Logistics, and Technology; Maj. Gen. 
  Barbara Fast, Command Gen. and Commandant of the U.S. Army 
  Intelligence Center at Fort Huachuca, U.S. Army; Thomas Laux, 
  Program Executive Officer for Air Anti-Submarine Warfare 
  Assault and Special Mission Programs, Department of the Navy; 
  Rear Adm. Bruce Clingan, Deputy Director for Air Warfare, U.S. 
  Navy...........................................................     5

                                APPENDIX

Prepared Statements:

    Bolton, Jr., Hon. Claude M...................................    58
    Landon, John R...............................................    41
    Laux, Thomas, joint with Rear Adm. Bruce Clingan.............    78
    Weldon, Hon. Curt............................................    37
    Wilson, Hon. Heather.........................................    39

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. McHugh...................................................    95
    Mr. Weldon...................................................    93
                      AERIAL COMMON SENSOR PROGRAM

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Tactical Air and Land Forces 
            Subcommittee, Meeting Jointly with Technical 
            and Tactical Intelligence Subcommittee of the 
            Permanent Select Committee on Intelligence, 
            Washington, DC, Thursday, October 20, 2005.
    The subcommittees met, pursuant to call, at 4:08 p.m., in 
room 2118, Rayburn House Office Building, Hon. Curt Weldon 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM 
     PENNSYLVANIA, CHAIRMAN, TACTICAL AIR AND LAND FORCES 
                          SUBCOMMITTEE

    Mr. Weldon. The subcommittee will come to order.
    This afternoon the Tactical Air and Land Forces 
Subcommittee has the pleasure of meeting in a joint session 
with the Technical and Tactical Intelligence Subcommittee of 
the Permanent Select Committee on Intelligence to receive 
testimony on the Army and Navy's Aerial Common Sensor (ACS) 
Program.
    This is a program the subcommittee has been following for 
some time. I had asked the Government Accountability Office for 
a report on ACS, and they reported back to us in September of 
2004.
    We welcome our witnesses representing the Office of the 
Secretary of Defense and the Departments of the Army and Navy, 
and I want to thank and welcome our members.
    At a previous 1-hour classified briefing, we had 11 Members 
of Congress, in spite of votes being canceled, who stuck around 
from both parties to receive an in-depth analysis of the 
capabilities of the program we are going to be discussing 
today. And I want to thank the members that are here and those 
members that made that portion of our briefing.
    The ACS program was initiated to upgrade and consolidate 
the capabilities of three current intelligence collection 
aircraft types of the Army and Navy: the Army's Guardrail 
Common Sensor and Airborne Reconnaissance Low programs and the 
Navy's EP-3.
    The program was approved for entry into Systems Development 
and Demonstration (SDD) in July of 2004. In August of 2004, the 
Lockheed Martin-Embraer team was awarded an $879 million, 5-
year contract to develop electronics and sensors to be carried 
on a militarized version of the Embraer 145 regional jet 
aircraft.
    Total acquisition costs for the 38 aircraft Army program 
was estimated to be $8 billion for 38 aircraft. Although the 
Navy was not a signatory to the acquisition decision 
memorandum, the Navy budgeted for the program in fiscal year 
2006, with an intended eventual procurement of 19 aircraft.
    In the spring of this year it became apparent that weight 
growth in the mission package would cause the ACS to fall short 
in meeting its requirements. In September, Lockheed Martin was 
issued a stop work order, halting all work on ACS. Lockheed 
Martin was given 60 days to develop an alternative plan for the 
ACS program. The Army has recently stated that there is now a 
potential for a 2-year delay in fielding the ACS platform and 
that the development cost could double to $1.8 billion.
    Upon entry in the systems development and demonstration, 
ACS could have been characterized as a low- to medium-risk 
program based on declared technology readiness levels. Yet less 
than a year into the SDD program we are at stop work, with all 
the attendant costs and schedule ramifications. And with many 
engineers having been reassigned to other programs, difficult 
to predict negative impacts to the program are highly probable 
due to discontinuity in the design teams, if the program is 
restarted.
    This has significant negative implications for this program 
and potentially similar implications for other programs if this 
management failure is indicative of shortcomings in the 
acquisition system as a whole.
    Our understanding is that the ACS problem was largely a 
result of something as simple as a significant underestimation 
of the weight of connecting cables and racks for the mission 
equipment, due to ``bad parametrics.'' We also understand that 
a $4 million cut in risk reduction on integration tasks to 
``save money'' potentially contributed to this $800 million, 2-
year slip in the program.
    Further, it isn't like the present ACS circumstance comes 
as a total surprise. The January 2004 Director, Operational 
Test and Evaluation report stated the following: ``There are 
concerns about the size, weight and power requirements of the 
aircraft required to carry and operate the multi-intelligence 
sensor payload. Associated with this issue, there are concerns 
about the growth potential of the aircraft to add additional 
systems and capabilities in the future, consistent with the 
growth experienced with most other U.S. aircraft platforms.''
    This is not a new story. The Joint Strike Fighter went 
through a restructure, with the development cost increasing to 
over $40 billion and adding over a year to the program, largely 
due to weight problems of fasteners, driven by ``bad parametric 
estimates.'' If the ACS history is symptomatic of larger 
acquisition system shortcomings, this also has potentially far 
greater negative implications for more complex programs like 
the Future Combat Systems program.
    We all agree that we need to shorten the acquisition cycle, 
but we should not be rushing into SDD for programs without 
mature technologies and system integration being demonstrated 
in a relevant environment.
    DOD has its 5000 series acquisition regulations. No one is 
saying that OSD should not have flexibility in enforcement of 
those regulations, but OSD seems to too often default to 
waiving the regulations. As an example, the Future Combat 
Systems program was allowed to enter SDD long before 
technologies had matured. And virtually no integrated 
capability for any of its components have been demonstrated. 
And the requirements for an independent cost estimate has yet 
to be may et.
    We have invited our witnesses here today to how we got to 
where we are on ACS, what lessons have been learned and what is 
being done to determine the proper path forward.
    Before we begin, I would like to recognize my good friend 
from Hawaii, Neil Abercrombie, our ranking member, for his 
opening remarks.
    Mr. Abercrombie.
    [The prepared statement of Mr. Weldon can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
     HAWAII, RANKING MEMBER, TACTICAL AIR AND LAND FORCES 
                          SUBCOMMITTEE

    Mr. Abercrombie. I think your remarks essentially cover the 
circumstances we are to undertake during the hearing.
    My difficulty, Mr. Chairman, is with reference to the 
classified portion of our activities today. And my difficulty 
here is, although I could not stay, as you know, for other 
reasons having to do with one of our colleagues in honoring his 
spouse, Ike Skelton, our ranking member, nonetheless, the 
information that was given there seems to me to be at odds with 
the circumstances that brings us to this hearing today.
    And I think that is where our difficulty comes. It is one 
thing to say something; it is another thing to be able to 
actually bring to fruition substantively what the remarks 
exchanged referred to. And that is why we have to make a 
determination today on the basis of the outline that you have 
presented to us in your opening remarks.
    Thank you.
    Mr. Weldon. I thank the gentleman.
    We are also very pleased to have the distinguished 
gentlelady as the chair of the very important Technical and 
Tactical Intelligence Subcommittee. We welcome her back because 
she has been a very valuable member of this committee. She has 
an outstanding level of credibility on defense issue and 
defense issues in general.
    And so I am pleased to recognize for any comments she would 
like to make, Ms. Wilson.

  STATEMENT OF HON. HEATHER WILSON, A REPRESENTATIVE FROM NEW 
    MEXICO, CHAIRWOMAN, TECHNICAL AND TACTICAL INTELLIGENCE 
                          SUBCOMMITTEE

    Mrs. Wilson. Thanks, Mr. Chairman.
    And thank all of you for being here this afternoon.
    On the Intelligence Committee, most of the programs that we 
oversee are classified, and our questions take place behind 
closed doors.
    I wish that the problems being faced by the aerial common 
sensor were unique, but they are not. The program that we are 
here to review today is just one example of continued problems 
with the way in which we buy complicated defense and 
intelligence systems.
    We all know that we need to upgrade the Army and Navy 
aircraft that watches and listens to potential enemies and real 
enemies. They are very old and they are not up to the demands 
of the 21st-century warfare. But because we didn't do a good 
enough job in setting the requirements, getting different 
agencies on board early and developing an acquisition strategy 
to reduce the risks, we are not going to have those planes when 
we want them, and will it cost us a whole lot more to get them.
    While all of us are concerned about what the Army and the 
Navy should do to meet its requirements for intelligence 
surveillance and reconnaissance, our committee is even more 
concerned about a bigger issue of which ACS is only 
symptomatic.
    First, what does this experience tell us about how we need 
to change the way we buy and manage big systems? The outside 
review that was requested by the Army and done by the Navy 
after the stop work concluded that the research development 
tests and evaluation costs would be twice as high as projected, 
the schedule was unexecutable, the program might not meet Army 
and Navy requirements, the government and contractor personnel 
lacked experience on projects of this size, and a flight test 
program was ill defined. Not a very encouraging report on the 
management of a major system.
    Second, what does this experience tell us about the need to 
coordinate and plan across the stovepipes as we decide what we 
will need to build for intelligence, surveillance and 
reconnaissance.
    The Navy joined this project late. The Air Force is 
replacing JSTARS a few years after we hoped to get this up in 
the air. Did we have an architecture and a clear definition of 
roles and requirements? We got the architecture document, at 
least up here, in May of this year. It doesn't look like to me 
we did enough talking across the stovepipes early on in the 
process.
    So how can the services work better together to divide up 
roles and missions or to make sure that we plan together so 
that we get the capability that you all need at a price that we 
can afford.
    I look forward to the testimony as we look toward answers 
to these questions. Thank you.
    [The prepared statement of Mrs. Wilson can be found in the 
Appendix on page 39.]
    Mr. Weldon. I thank the gentlelady for her comment and 
thank again all the members that have taken the time to be 
here. When votes ended some time ago they stuck around, which 
shows you the importance that is placed on this issue and this 
program by these members who otherwise would be on their way 
back to their districts.
    Our witnesses for today are distinguished.
    Representing the Office of Secretary of Defense, Mr. John 
R. Landon, Deputy to the Assistant Secretary of Defense for 
command, control, communications, intelligence, surveillance, 
reconnaissance and IT acquisition programs.
    Assistant Secretary of the Army for Acquisition, Logistics 
and Technology, the Honorable Claude Bolton. Mr. Secretary, 
welcome back to this subcommittee. We appreciate your being 
here.
    Major General Barbara Fast, Commanding General and 
Commandant of the U.S. Army Intelligence Center and Fort 
Huachuca. Thank you for being here.
    From the Navy, Mr. Tom Laux, Program Executive Officer for 
air anti-submarine warfare assault and special mission 
programs.
    And Rear Admiral Bruce Clingan, Deputy Director for Air 
Warfare.
    Without objection, all witnesses' prepared statements will 
be accepted for the record.
    I understand you have all agreed that three are going to 
testify but others will be available, as needed, for questions 
and answers, so members will have a chance to ask whatever 
questions they would like.
    We would like to begin with Mr. Landon. Thank you for being 
with us. Please proceed with your opening remarks.
    Please pull the microphone close to you so we can make sure 
that you are heard. Thank you very much.

STATEMENT OF JOHN R. LANDON, DEPUTY TO THE ASSISTANT SECRETARY 
OF DEFENSE FOR COMMAND, CONTROL, COMMUNICATIONS, INTELLIGENCE, 
  SURVEILLANCE, RECONNAISSANCE, AND IT ACQUISITION PROGRAMS, 
 DEPARTMENT OF DEFENSE; HON. CLAUDE M. BOLTON, JR., ASSISTANT 
     SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, AND 
    TECHNOLOGY; MAJ. GEN. BARBARA FAST, COMMANDING GEN. AND 
    COMMANDANT OF THE U.S. ARMY INTELLIGENCE CENTER AT FORT 
HUACHUCA, U.S. ARMY; THOMAS LAUX, PROGRAM EXECUTIVE OFFICER FOR 
    AIR ANTI-SUBMARINE WARFARE ASSAULT AND SPECIAL MISSION 
  PROGRAMS, DEPARTMENT OF THE NAVY; REAR ADM. BRUCE CLINGAN, 
           DEPUTY DIRECTOR FOR AIR WARFARE, U.S. NAVY

    Mr. Landon. Yes, sir. Chairman Weldon, Chairwoman Wilson, 
distinguished members of the two subcommittees, thank you for 
this opportunity to speak to you about the Aerial Common Sensor 
Program.
    As indicated, I am John Landon. I am the deputy to the 
assistant secretary of defense, networks and information 
integration. I have responsibility for reviewing acquisitions 
in the command and control, communications, intelligence, 
reconnaissance, surveillance, space and information technology 
areas.
    I am here today representing Mr. Ken Krieg, the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(USDAT&L) and the Milestone Decision Authority for the Aerial 
Common Sensor Program. He is traveling overseas on official 
business and unable to attend this very important hearing.
    The Aerial Common Sensor program is designated a Major 
Defense Acquisition Program in accordance with Title 10, and my 
office oversees the acquisition activities of the program in 
accordance with the Department's acquisition regulations and in 
support of Mr. Krieg.
    In the case of ACS, I also work closely with the Office of 
the Under Secretary of Defense for Intelligence to ensure the 
system is delivering the desired capabilities. The Department's 
acquisition regulations are designed to provide a structured 
process through which validated capabilities are acquired, 
starting with early concept exploration activities, continuing 
through development and demonstration and leading to a decision 
to produce and fully deploy the capability.
    My involvement in these programs is to ensure the mandates 
of statute and regulation are adhered to and the programs are 
on a success-oriented track as they enter the system 
development and design phase. My office also measures the 
progress that programs are making as they advance through the 
phases of the acquisition cycle, with special attention to the 
program's achievement of its performance, cost and schedule.
    I also serve as the leader of the Overarching Integrated 
Product Team (OIPT), a group responsible for ensuring programs 
in the acquisition process have satisfied the necessary 
criteria for entering the next phase of acquisition. For a 
number of years, the Department has used the Integrated Product 
Team approach as a process for reviewing its acquisition 
programs.
    The group I lead, as well as the supporting groups, consist 
of subject matter experts from across the Office of the 
Secretary of Defense and the services. These experts bring 
their considerable knowledge and experience to the table as we 
review the multiple facets of today's critical acquisition 
programs.
    Our OIPT members include representatives from all parts of 
the Department. For example, the Joint Staff provides advice on 
capabilities; the Defense Procurement Office assists the 
program office in development of their acquisition strategy; 
and the Program Analysis and Evaluation Office is key to the 
development of alternatives analysis and accurate program cost 
estimates.
    Our key representatives are the Office of the Director for 
Operational Test and Evaluation; the Defense Research and 
Engineering Office; the comptroller; the chief information 
officer; Logistics and Materiel Readiness Office; the general 
counsel, as well as several others.
    Once a program completes the review process, we present the 
findings to the Under Secretary of Defense for Acquisition 
Technology and Logistics and his advisors and offer a 
recommendation as to whether the program is ready to proceed.
    With regard to ACS, we followed the process I have 
described above and collectively concluded that the program was 
ready to enter the system development and demonstration phase. 
The results were presented to the under secretary and his 
advisors, and on July 29, 2004, he approved entry into this 
phase of development. The decision was forwarded to the 
secretary of the Army, and source selection and contract award 
was completed by the Department of the Army.
    With that as background, I am here to answer any questions 
you may have.
    [The prepared statement of Mr. Landon can be found in the 
Appendix on page 41.]
    Mr. Weldon. Thank you for being with us.
    Secretary Bolton, again, welcome back, and it is good to 
have you here.
    Secretary Bolton. It is good being back, sir.
    Good afternoon, and thank you, Chairman Weldon, Chairwoman 
Wilson and distinguished members of the Tactical Air and Land 
Forces Subcommittee and the House Permanent Select Committee on 
Intelligence for this opportunity to discuss the Army's 
Intelligence Collection Program, specifically the Aerial Common 
Sensor Program. We are most grateful always for your wisdom, 
advice and steadfast support.
    The United States Army, with nearly 300,000 soldiers in 120 
countries, is meeting the demands of the Global War on Terror, 
fulfilling our other worldwide commitments and transforming to 
meet the challenges of an uncertain future. It is our job to 
ensure that our men and women in uniform have what they need to 
fulfill their mission today as well as tomorrow.
    The Aerial Common Sensor Program, or ACS, is critically 
important to our future Army. The enhanced battle space 
awareness that this system will bring to the fight will 
significantly increase both the lethality and survivability of 
tomorrow's Army.
    Currently, our Special Electronic Mission Aircraft, or 
SEMA, S-E-M-A, is comprised of the Guardrail Common Sensor and 
the Airborne Reconnaissance Flow Systems. These aging fleet 
aircraft, dispersed in five battalions throughout the world, 
are doing a superb job. However, there are limitations that 
come with age and in terms of the range of timeliness of 
information.
    ACS will replace these 2 workhorses, bringing intelligence 
transformation to the 21st-century battle space. We are hard at 
work to ensure that the ACS becomes the agile, multi-
intelligence, multi-functional system that our future tactical 
commanders require. Simultaneously, with your help, we are 
making certain that our current systems in the SEMA fleet keep 
pace with the advancing technology to meet the changing threat 
until they are replaced by the ACS.
    We have spent countless hours developing our requirements 
documentation, specifically the operation requirements document 
and the key performance parameters, and have exercised 
programmatic control and management oversight at each step of 
the process. I believe the Army has been proactively raising 
and addressing some very difficult issues concerning the ACS 
Program.
    Our goal remains unchanged: To recognize and mitigate the 
risks at the earliest possible stage and to ultimately fill to 
our war fighters this critically important and needed system 
that will continue to allow our commanders the ability to gain 
and hold the advantage and to conduct decisive operations on 
their terms and not that of the enemy's.
    And that concludes my opening remarks. Again, I thank you 
for this opportunity and your continued wisdom, guidance and 
support, and I look forward to your questions.
    [The prepared statement of Secretary Bolton can be found in 
the Appendix on page 58.]
    Mr. Weldon. Thank you, Mr. Secretary.
    Our final witness is Mr. Laux.
    Welcome back to the subcommittee. We appreciate you being 
here, and you can proceed with your opening statement. Thank 
you.
    Mr. Laux. Chairman Weldon, Chairwoman Wilson, distinguished 
members of the subcommittees, thank you very much for this 
opportunity to appear before you to discuss the Department of 
the Navy's EP-3E and Aerial Common Sensor airborne intelligence 
collection programs.
    The written statement I provided for the record describes 
the Navy's objective to recapitalize the EP-3E by leveraging 
the ongoing Army-led ACS Program.
    The Army's operational requirements document and the Navy's 
annex to that document fulfill Navy requirements for maritime 
and national missions in support of FORCEnet and Sea Strike Sea 
Power 21 Pillars. ACS will provide the combatant commander with 
72-hour response capability for worldwide intelligence, 
surveillance and reconnaissance prior to entry of forces.
    Since the chief of naval operations saw an opportunity for 
the Navy to leverage the Army's ACS Program, the Navy provided 
support within the Army's process for source selection, 
contributed to Army-assigned Integrated Product Team 
responsibilities and developed unique Navy documentation with 
the ultimate goal to be fully integrated into the Army ACS 
Program.
    In January 2005, the Navy requested deferring co-signing 
the ACS acquisition program baseline agreement until Navy 
concerns about schedule and cost risks could be mitigated. Our 
joining the program is indefinitely delayed pending resolution 
of the schedule breach and potential cost growth addressed in 
the Army program deviation report of May 2005.
    To help assess the overall program's help, the Army service 
acquisition executive, Secretary Bolton, accepted my offer to 
use the services of the Naval Air Systems Command's non-
advocate review. NAVAIR's chief engineer led this review with a 
team comprised of a broad array of acquisition experience. The 
review team assessed that the ACS Program is currently 
unexecutable. Specifics are detailed in my prepared statement.
    Considering this finding, the Navy is requesting fiscal 
year 2006 funds to conduct an analysis of alternatives, 
revalidate operational requirements and update documentation. 
Recently, we updated our 2004 analysis of options and 
determined that the new ACS costs leveled the affordability 
field with other manned options. Therefore, an analysis of 
alternatives is recommended to define discriminators among the 
potential solutions.
    The Navy's current challenge is keeping the EP-3E viable 
and relevant until an ACS initial operational capability is 
established. We requested funds to begin work on mission 
systems sustainment and relevance of legacy EP-3E aircraft. If 
required funding is made available for the above, we will be 
able to position ourselves for the results of the ongoing 
Quadrennial Defense Review.
    Mr. Chairman, Ms. Chairwoman, thank you again for this 
opportunity to discuss with the subcommittee the Navy's EP-3E 
and ACS airborne intelligence collection programs. We stand 
ready for your questions.
    [The joint prepared statement of Mr. Laux and Admiral 
Clingan can be found in the Appendix on page 78.]
    Mr. Weldon. Thank you.
    Thank you all for your testimony, for your statements. They 
will all be accepted. If you want to add additional follow-on 
to any of the questions that are asked today, you will be free 
to do that as well.
    Let me start off with Secretary Bolton. In my opening 
remarks, I quoted from the fiscal year 2003 Director of 
Operational Tests and Evaluation Report about the concerns that 
he had regarding size, weight and power requirements of the 
aircraft required to carry and operate the mission intelligence 
payload.
    Can you specify any interaction with DOT&E and/or changes 
to the ACS Program that took place based on the comments in 
that report?
    Secretary Bolton. Yes, sir. In fact, we agreed with the 
report, and as a consequence, that and our own review of the 
program asked the program manager and the Program Executive 
Officer (PEO) that they negotiated the contract, whichever 
company that would be or team, that there be a proviso in that 
contract to report on a monthly basis progress and tracking the 
size, weight and power. We had a baseline that we wanted to 
stay within, and so it was a contract requirement which was 
fulfilled by the contractor and it was as a result of that 
report and our own investigations.
    Mr. Weldon. I will just ask one other question at this time 
and give all of our members a chance.
    Mr. Laux, per your written statement, in January of 2005, 
via a memorandum for USDAT&L, ``The Navy requested deferring 
co-signing the ACS Acquisition Program Baseline Agreement until 
completion of a program integrated baseline review and 
preliminary design review, at which time concerns about 
schedule and cost risk could be addressed.''
    Was the Navy just clairvoyant? What schedule and cost risk 
concerns were you referring to? What did the Navy know that the 
Army didn't know, Mr. Laux?
    Mr. Laux. Mr. Chairman, we had ongoing concerns, which were 
then communicated with the Army, and they were certainly aware 
of them as well.
    I would offer that it was perhaps a matter of degree of the 
amount of risk that was out there, and we were simply not happy 
at that point that we had enough knowledge and insight into the 
program at that point to join up, if you will. And so we 
requested more program execution and the fact-finding and the 
information that would come out during the design review and 
the cost elements during the baseline review, as we annotated.
    Mr. Weldon. The gentleman from Hawaii is recognized.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Bolton, you have to help me here. I don't remember, I 
am sorry, are you an aeronautical engineer?
    Secretary Bolton. Electrical engineering, sir.
    Mr. Abercrombie. Okay. I am not.
    Secretary Bolton. Well, me either.
    Mr. Abercrombie. I am not either. I went to a small school 
whose reputation was built on the idea of a liberal arts 
education with engineering--Union College in Schenectady, New 
York.
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. And for those of us who did not have a 
talent for what was then known as the hard sciences--I don't 
know if that is still a phrase that is in vogue or not--but 
those of us who were involved in the other sciences, social 
sciences, the object was to try and understand the implication 
of technology in the social structure of our society, attempt 
to become somewhat at least familiar with the advancing of 
technology, i.e. the scientific method as it evolved as a 
philosophy.
    I always thought that the scientific method was intelligent 
design, but I now understand that that is probably passe for 
some people. But it affected me and it affects me now.
    I give that to you by way of background, because my 
question to you comes from my own background and my 
understanding of how science moves forward as potentially a 
layperson trying to deal with it.
    Now, one thing I understood from all of that in this 
context is how much an airplane weighs, and I am referring back 
to the chairman's remarks, and if I heard him correctly, it 
refers to the 2003 report that came from the director, the 
operational test and evaluation report.
    ``There are concerns about the size, weight and power 
requirements of the aircraft required to carry and operate in 
the multi-INT sensor payload. Associated with this issue there 
are concerns about the growth potential of the aircraft to add 
additional systems and capability in the future consistent with 
the growth experienced by most other U.S. aircraft platforms.''
    I hope that is contextual enough. I am not trying to pull a 
fast one on pulling something out of the context.
    Now, here is my question: How much an airplane weighs, 
considering the context I just outlined, is a basic engineering 
aspect that has to be taken into account. Having gone to Kill 
Devil Hills in the past myself, I understand explicitly in 
three dimensions now what the Wright Brothers had to deal with 
in terms of weight, and probably weight was the principal 
consideration that they had, at least my understanding of it 
is. The aerodynamics and so on they had down pretty well. It 
was a weight problem, how were they going to transpose and 
translate their knowledge and understanding of the physics of 
that into a practical application for the construction of that 
airship.
    That is in 1903. So I cannot understand how it was possible 
that so many engineers and so many managers, right up until 
essentially 2005, could get this wrong. And we still don't have 
an answer.
    Now, I made reference in my opening remarks to the 
classified briefing that we had just previous, and obviously I 
can't go into that and you can't go into what the substance of 
that was, but what concerns me and disturbs me is the tenor of 
the remarks and respective answers to questions that were 
raised were such that one would be led to believe that these 
issues had been addressed and that things were on track to 
accomplish the tasks set out therein, which we don't have to go 
into in any detail, doesn't matter for purposes of our 
conversation.
    How is it possible that we are where we are if someone like 
myself understands that the weight question in conjunction with 
the mission requirements is at least fundamental before you 
move forward into the kind of contracting that we are now 
having to confront in terms of apparently the incapacity to 
move forward on those contract specifications?
    How did this happen?
    Secretary Bolton. Mr. Abercrombie, first, it is good seeing 
you again.
    Second, you ask some of the most interesting questions that 
a technical person like me has to answer succinctly and 
clearly.
    Mr. Abercrombie. Not too much praise, the chairman says.
    Mr. Weldon. You praise him too much and we will be here 
till 9 o'clock tonight.
    Mr. Abercrombie. But you understand what I am doing. Every 
person here sitting in these chairs doesn't have a clue. You 
could get up there and literally say, ``The moon is made of 
green cheese,'' and there is not a whole hell of a lot we can 
do to refute it if it is based on a technology-based, science-
based answer.
    So someone like myself who has to vote on this, has to try 
to take a responsible position, has to understand how in the 
hell did this happen and what are we going to do about it at 
this stage?
    Secretary Bolton. Well, I will tell you, I asked the same 
question when I received the status of the program a few months 
ago. And I will tell you, though I have a technical background 
and though I have been a pilot, test pilot and so I understand 
weight, balance, power on air frames, I will tell you, I also 
have a brother who is not technical. He has four masters and a 
Ph.D. and they are all in the soft sciences. So he has 
counseled me over the years to be able to translate this, at 
least for him.
    When the program manager and the executive officer came to 
me, I asked the same question, ``How in the heck did we get 
here?'' I realized in regards to the chairman's opening 
comments on the risk of the program, when we entered SDD it was 
moderate to high, and it was high because of the risk and the 
weight area. That is why we asked the contractor to come to us 
each month and tell us how they were doing as we did the 
designs.
    To your point, what we did not do in the previous phase was 
really to take the operation requirements and break those down 
into the design technical requirements.
    Mr. Abercrombie. But that is just fundamental. If you can't 
do that, then you have to come and tell us, ``We can't do this. 
We have got to go in another direction.''
    Secretary Bolton. It was our belief at the time that we had 
done enough in that phase in terms of computer simulations, in 
terms of some preliminary design work, paper design work, using 
tools that we normally use in all the other programs that would 
allow the risk to be where it was and then go ahead and track 
that risk. We had plans to do that and that is what we were 
doing.
    In addition, there was pressure on the services. I 
mentioned up-front, and it has been mentioned before, that we 
do have a very old fleet. That fleet is maxed out today in the 
area of responsibility (AOR) and we really do need a capability 
to help our tactical commanders over there.
    So from the Army's standpoint, it was worth taking a higher 
risk program in, given all the things that we had done and then 
just monitor it.
    The other thing I will say, and then I will give you my 
reason why I think we are here, which is not technical, it is 
more a people thing than it is a technical thing, but in the 
programs that I have seen over the years, what we are doing 
here today we typically wouldn't do for 2 or 3 years. We would 
have spent a lot of time and effort for me to sit here to 
eventually tell you we got something wrong.
    Unlike that, in this program, within the very first years, 
at my urging to my folks, I said, ``If you have a problem,'' in 
fact, we established on this program what I call a termination 
criteria and there were two of them. If you cannot meet the key 
performance parameters and/or you cannot meet critical 
milestones like the preliminary design review, which was 
supposed to have taken place earlier this year, or the critical 
design review, that is grounds for you to come back to me and 
tell me that and I will look seriously at whether or not we are 
going to continue this program.
    Now, for most program managers, they don't like 
establishing things like that, because they are viewed as 
failures if they come in to do this. But as a result of that, 
in the last 3.5 years that I have been here, I have terminated 
or stopped 70 different programs, because I want to know right 
away. I do not have the time, and we certainly don't have the 
resources, to do things in the wrong direction.
    So I am pleased with what those two gentlemen did in coming 
and saying, ``We have got a problem. We have got to stop. We 
have got to figure out what we are doing,'' and do it now 
rather than coming into you 2 or 3 years later.
    Now, why is this happening, my view, and the reason I asked 
the Navy to go do the review. I asked the Navy to take a look 
at two things. First of all, take a look at the technical side, 
technically why didn't we understand this. And I want you to 
take a look at it from the government's viewpoint and the 
contractor's.
    And what I got out of that is what I surmised: Yes, 
hindsight being what it is, we could have done some things 
certainly in the other phase which would have required more 
money and actually prototyping. That is the only way you could 
really understand size, weight and power. There have been cost 
and schedule implications to that.
    The other is looking at the various processes we have today 
that are people-oriented, good people in these processes: The 
requirements community, resourcing community, the acquisition 
community, Very good people. And I will foot stomp that. We 
have the world's best people in there.
    What we have trained those people to do over the years is 
to work in stovepipes. Successful programs are very good at the 
people level of breaking across at the top and making that 
work. But from an institutional standpoint, we in the Army--I 
won't speak for the Department of Defense--haven't done that in 
nearly 50 years in breaking those stovepipes down. We are doing 
that now in other programs. It was not done well enough on this 
program.
    And when I say break the stovepipes down, it is not only a 
matter of let's organizationally do something, but within those 
stovepipes it would be really neat if you would really educate, 
train and provide the right tools for those people. If we had 
done that, I think this program and a host of other programs 
would have less problems.
    And, in fact, in the Army, that is what we are trying to do 
right now, is to break those stovepipes down to make sure the 
requirements community, sitting with the resourcing community, 
sitting with the acquisition community from day one are looking 
at those operational requirements to try to understand what 
really are the technical and financial implications of trying 
to do that.
    Which, by the way, we are doing right now in the stop work. 
All those communities are getting together to do that work 
right now.
    Mr. Abercrombie. Appreciate it. I am past my time, and I 
will follow-up.
    Mr. Weldon. The gentlelady is recognized.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Secretary Bolton, I was struck by something that you just 
said. You said the only way to really understand the tradeoffs 
for cost, weight and power is to build a prototype, but as I 
understand the timeline here, you awarded the contract to 
Lockheed Martin in August of 2004 and knew by December of 2004 
that you were running into weight problems.
    How far were they into building the first aircraft?
    Secretary Bolton. Oh, not at all. We are just doing the 
detailed design work, so we are not building.
    Mrs. Wilson. Then you didn't need to build a prototype to 
figure out you had----
    Secretary Bolton. Oh, I disagree. The platform is a 
platform. We are trying to do a commercial platform, as you 
know. The boxes, those are being built. And let me give you an 
example or two of what we mean by this.
    We are trying to put onto one platform a number of 
different sensors. We have Signals Intelligence (SIGINT), 
Imagery Intelligence (IMINT), Measurement and Signatures 
Intelligence (MASINT) and so forth, and rarely have we done 
that before. We did a lot of study up-front to say ``Yes, that 
looks good.'' We had three contractor teams who told us, ``We 
can do this. And, by the way, we can do it reliably, so you 
don't have to buy a lot of aircraft, and we can do it on one 
platform.'' So it wasn't just this contractor. There were at 
least two others who were saying the same thing.
    So we went through the demonstration phase, the concept 
phase, now we are ready to go into SDD. When we take the 
operational requirement, like the notion, okay, on this multi-
INT aircraft, on each mission, are you required to have every 
black box on at the same time? The answer came back, ``yes''. 
``Oh, we didn't understand that.'' If that is what you want, 
now we are going to have more air conditioning, and we are 
going to have to have more power, which will add to the weight 
of the aircraft.
    Mrs. Wilson. I guess my question is, and this is a fairly 
short time when you realized there was a problem----
    Secretary Bolton. Yes.
    Mrs. Wilson [continuing]. Looking back at it now, and the 
great thing about being able to look back is you get a magic 
wand to decide what it is you might have done differently in 
your acquisition strategy, would you have changed anything or 
do you think it is inevitable that we are at this point?
    Secretary Bolton. Well, as I said earlier, and I will foot 
stomp this again, I think you really need the communities 
together better. They are doing it now. We are not cutting 
metal right now. We are not writing any software. But we really 
are understanding the impacts of the operational requirement.
    And what I am saying is, why don't you get that group 
earlier? Wouldn't it be nice if you got that group together, 
say, down at Fort Belvoir, at the school down there, had a case 
study like this and we would sit around in the afternoon 
thinking about how you actually do this. How did those folks 
get into that position? How should we correct this on the next 
program? What tools should we be using? What policies should we 
have in place? What oversight should we have in place, rather 
than doing it right now when there is a lot at stake here.
    We do not train our folks to do this. We don't. The 
requirements community doesn't train that way. By law, I have 
to train the acquisition community. They have to be certified 
and experienced before I can put them in there, so they do go 
down to Belvoir and do that.
    Mr. Abercrombie. Would you yield for one moment?
    Mrs. Wilson. Sure.
    Mr. Abercrombie. Are you telling Representative Wilson that 
this was contractor driven and you folks went along? Is that 
what you are telling her?
    Secretary Bolton. No, that is not what I am saying.
    Mr. Abercrombie. Well, it sure sounds like it.
    Secretary Bolton. No. I am not understanding, sir, how we 
are getting the contract, because this is all on the 
government's side right now. It is not driven by the 
contractor. What I am talking about is us before we ever write 
a contract for SDD. And it is a matter of getting the 
requirements right, really understanding that. And I can say 
that because I used to write requirements. I didn't have class 
one on it.
    Mrs. Wilson. Thank you. I appreciate that, and I appreciate 
the directness of your answer.
    Mr. Laux, would you also comment on that as well, on this 
issue of joint requirements, and particularly whether there was 
any signoff by senior intelligence folks in the services to 
say, ``These are our requirements?'' Because what I read 
through this is the Navy all the way through saying, ``I will 
have what he is having,'' but coming at it from a very 
different point of view. And are you there as well saying, 
``All right, let's sit down and figure out what we really 
want.''
    Mr. Laux. If I could defer to Admiral Clingan to take that 
one.
    Admiral Clingan. Chairwoman Wilson, the requirements 
process is derived from the operators on the ground, as they 
look forward to meeting the threat of the future. And as we 
develop those requirements, we codify them in key performance 
parameters.
    In the case of the ACS Program, as we look to the 
challenges of recapitalizing the aging EP-3 fleet, we had an 
opportunity to partner with the Army. Maybe if we could 
rationalize the requirements across the services which were 
extraordinarily common. In fact, we departed initially in only 
one way and that was our requirement to have six workstations 
as opposed to four. And those requirements have been stable 
throughout the process up until this point as we have gone 
through the acquisition elements which follow from the 
requirements.
    Mrs. Wilson. Why does the Army think this is an Army 
program and the Navy think this is a joint program in your 
budget documents? I am struck by the way that language is--or 
maybe I have got that reversed. This has never really been 
described as an, ``we are all body and joint program.'' This is 
an Army program that the Navy is partnering with. I think that 
is the word you just used. Why are we doing it that way?
    Admiral Clingan. It took that tenor because we came into 
the process subsequent to some progress being made by the Army. 
We liked the requirements, as I mentioned earlier. They 
harmonize with what we were looking for, and so we looked for 
an opportunity to join the program at the time when we viewed 
the challenges to have been overcome.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Weldon. I thank the gentlelady.
    The gentleman, Mr. Tiahrt, is recognized.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    In full disclosure, I am from Wichita, Kansas, the air 
capital of the world, where we have Boeing, Bombardier Learjet, 
Textron Cessna, Raytheon-Beech, Spirit Aerostructures, the 
largest stand-alone aerostructure facility in the world, an 
Airbus design shop and 150 machine shops, electrical shops and 
test equipment shops that support the industry. So if you have 
flown, some part of that airplane originated in Wichita, 
Kansas. I just want to make sure you are aware of that.
    We are limited in here to talk about really two things: The 
schedule and the platform. And the platform, it is clear that 
it is inadequate with the current platform that was proposed. 
The weight capabilities, the power capabilities, the cooling 
capabilities, it is just not enough for this mission-critical 
requirements. And we can't afford to dumb down the package.
    I think what we are looking for here is so critical that we 
can't afford to have anything less. In fact I think we need to 
expand our thoughts about what other growth is out there.
    And, schedule, we are on a stop order now, so schedule is 
kind of TBD, to be determined. Now, we don't know what we don't 
know. We don't know about the growth of technology, we don't 
know about the growth of threats that will come out of that new 
technology, and we don't know the number of users per the 
requirements that this mission has. So I think we need to look 
beyond just what our current little problem is, because we are 
looking at costs now, and I think we are being penny wise and 
dollar foolish, because there is a long-term growth that has 
not been, I think, addressed or acknowledged.
    Now, there has been, I think, a bias toward a heavy jet for 
this role of this mission, and I know during Quadrennial 
Defense Review (QDR) there was some concern about mission 
duplication and there was an article in Defense News and Army 
Times, published October 3, and it quoted the light transport 
that the Army is going after in the ACS Program. General John 
Jumper said that there is no reason to build a new Air Force 
because we already have one.
    Now, I think that is an excellent statement for the chief 
of the Air Force, but as I look out there, I know we have got 
somebody from the Secretary of Defense but I don't see any blue 
suiters out there or any people from the Air Force. So I think 
we need to address that issue, whether there is a bias against 
a heavy jet. Is there a question or a concern of encroaching 
into another services that would bias the size of the airframe, 
is one of the questions I have.
    The other question I have is on schedule. How much longer 
would it take to try to put these requirements into a 
commercial business jet or a regional jet? Because there is a 
big difference between a militarized aircraft and a commercial 
aircraft. And when it comes time to build an airplane, if it 
comes off a militarized production line, it has a shorter 
schedule than it does if you take a regional jet line or a 
business jet line and try to put all these military specs and 
other requirements into it during that process.
    So I would like you to answer, is there a bias? Are we 
addressing the growth? And how much longer is it going to take 
if we try to put this in too small a package?
    I would like, of course, Secretary Bolton, also Mr. Landon 
to address that.
    Secretary Bolton. Mr. Tiahrt, it is good seeing you again. 
And as you may recall, one of my assignments was at McConnell 
Air Force Base there in Wichita, so I had a chance to 
understand the aviation part of that community, which as you 
mentioned, is key and very important.
    In terms of why, I don't have a bias. What I do have a bias 
for is I have a prime contractor and the onus is on that 
contractor to do as I have asked him to do, and that is put a 
program together. I do know they are looking at all sorts of 
alternatives in terms of a platform that will accommodate the 
requirements, the operational requirements. And I am anxious 
for them to come in in about a month's time and tell me what we 
have in terms of a program, in terms of a platform 
accommodating the requirements, not dumbing it down, as you 
indicated, and also what is affordable, because we are not 
looking at just the up-front costs here.
    This system will be around at least 20 years. And can we 
afford to do this? I will ask if there are any other 
alternatives outside of that and what the contractor comes up 
with. But I do not have a bias one way or the other.
    And in fact, in terms of the Air Force, depending on how 
things go over the next month, we would love to sit down and 
chat with the Air Force to see if we can bring some things 
together on that side and make sure it is affordable for 
everybody.
    Mr. Tiahrt. Mr. Landon, you want to address that?
    Mr. Landon. Yes, sir, I would be happy to. I think with 
regard to the bias, let me comment particularly on the way the 
capability or the requirement was developed. It was taken from 
a mission perspective, and the platform was not an entering 
argument for the first of the program. And so we really looked 
at it in the requirements process, looked at what is the 
capability required, how do we get that, and then what 
platforms will accommodate it.
    So in terms of bias, I would say it just didn't enter and 
still has not entered an argument.
    Mr. Tiahrt. In terms of schedule, you know, the Navy has a 
militarized line going on for a heavy jet through the Multi-
mission Maritime Aircraft (MMA) Program, and that is something 
that I think would expedite, help you buy some time on the 
schedule. Has that been measured between going down a line that 
is militarized versus taking a regional jet that is in a 
commercial facility, in another country?
    Secretary Bolton. What I have asked as part of the stop 
work order is that when the team comes back in, what the 
alternatives are. I am concerned about meeting the operation 
requirements. I am also concerned about, can I afford it, up-
front and the out-years? And to your point, would it be cheaper 
to do it, as you have suggested? Is there another way of doing 
it? I don't know the answer to that until the team really comes 
in. I am not biased one way or the other.
    Mr. Laux. Mr. Congressman, if I could comment. The initial 
operational capability for the MMA is currently the year 2013. 
When we evaluated the ACS candidates last year, that was 
factored into the available options, if you will, of what could 
be considered, how much bang we would get for the buck, as 
Secretary Bolton points out.
    Given where we are now, we certainly expect to work with 
the Army in reevaluating all the options, and we expect the MMA 
will be revisited as a potential candidate.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Weldon. I thank the gentleman.
    The gentleman from Maryland, Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    First, I am not a rocket scientist either. Now, we have 
Rush Holt is a rocket scientist, Todd Tiahrt is an engineer and 
Heather Wilson was in the Air Force, so I guess you have some 
expertise.
    I want to break this down into common sense and from what I 
understand, like the way Mr. Abercrombie wanted to do. What I 
see is the issue here that you had two different contractors. 
One contractor, I believe it was Northrop Grumman, their 
platform was Gulfstream, which their statements are basically 
that, ``We would have been able to handle all of the expansion 
and whatever you needed if you would have gone with our 
platform.'' However, theirs was more expensive. Then the 
Lockheed Martin was a cheaper platform.
    Now, one of the things that I heard through the whole 
process, and I am not taking either side here, we just want end 
game, is that during the process and past history that the Army 
has a reputation for going on the cheap. That is good 
sometimes, that is bad sometimes. It is bad when it doesn't 
work.
    Now, based on the fact that if you were a betting man, you 
would have bet who would have gotten that contract, it was 
going to be Lockheed Martin because their program was cheaper. 
And now looking back, the fact that we are where we are now, 
that when Lockheed got the contract and now you have to stop 
it, that means that we are way far behind, and we are probably 
going to have to spend more in the long run.
    So I am interested--and I am just making a statement, I am 
not going to ask you to answer this question--to make sure that 
when the Army evaluates in their acquisition they look at all 
the relevant factors and the analysis to make sure that we do 
it right.
    Now, let me get this in specifics. One logical question is 
that when the problems with the RJ145, the Lockheed chosen 
platform--when should they have been identified? Are you 
familiar with Edward Bair, he is the PEO? Now, he made a 
statement, it is my understanding, that he saw the problem with 
the RJ145 that the modeling tools used by the Army and Lockheed 
underestimated the weight of cables, harness and the cooling 
required onboard the aircraft by nearly 50 percent. Do you 
agree with that or not?
    Secretary Bolton. Mr. Bair works for me, so I know him very 
well.
    Mr. Ruppersberger. Do you agree with that comment?
    Secretary Bolton. What he is referring to are, as the 
chairman mentioned in the opening, the parametrics. Industry 
standards, not Army standards, not DOD standards, were used. 
When we got into this, we found that industry standards no 
longer apply. We are changing industry standards, and so that 
model does not work for this type of work, and it wouldn't work 
for the industry.
    With regard to the other competitor, the other competitor 
failed out not because they are more expensive, because their 
aircraft couldn't carry the weight during the source selection. 
Couldn't carry the weight. And that is how they were debriefed.
    Mr. Ruppersberger. Okay. I am not taking sides here.
    Secretary Bolton. I understand. I just want to make sure--
--
    Mr. Ruppersberger. I do want to point out, though, as it 
relates to that, that it is my understanding that Israel has 
gone with the Gulfstream and that they are going through the 
process and it is going pretty well right now. Are you familiar 
with their----
    Secretary Bolton. Not familiar with their program. I am 
familiar with mine. I am familiar with the weight that we have. 
That Gulfstream cannot carry it, period.
    Mr. Ruppersberger. Okay. Now, if that is the case, 
whatever. Now, the issue of--or the implication that Lockheed's 
chosen jet didn't have a lot of extra capacity and at the 
Army's request to add two more stations and lengthen endurance, 
didn't this make the choice of that platform questionable?
    Secretary Bolton. No. What we debriefed to that team and 
what was debriefed to me was that on the day of the award we 
had about 3,000 pounds, according to the contractor, margin. 
Our estimate was that it was less than that but still doable to 
fly the mission, fly with the weight and so forth. So on the 
day of the contract award, we had margin. But realizing that 
was a watch area, we requested that the contractor respond on a 
monthly basis on that margin.
    Mr. Ruppersberger. After they responded, it is my 
understanding that they only proposed minor modifications, 
leaving them almost no wiggle room for eventualities like 
Bair's statement. Why might that be?
    Secretary Bolton. Well, I am not sure I understand that 
part of the question.
    Mr. Ruppersberger. Let me get to the question again. 
Lockheed, even after these issues were there, only proposed 
minor modifications. Now, that didn't give them the ability to 
expand, which is where you wanted them to, which is why the 
program is stop now. Do you see that as the case?
    Secretary Bolton. I still don't understand but let me see 
if I can put this in perspective. On the day of the contract 
award, we were looking at an aircraft that met all of the 
operational requirements--all of them. There were no 
requirements that caused us to add anything to the aircraft.
    As you got into the detail design review and the technical 
requirements and realizing that the model that we were using, 
the industry standard no longer applied, the cabling is going 
up by 50 percent, or the fact that the aircraft now has to be 
stressed to 16 Gs, which is not normal for any aircraft, 
Gulfstream or anybody else. They are normally 9 Gs, that is the 
FAA standard. That drove the weight up. Those are all things 
that we discovered as we took those operational requirements 
and broke them into----
    Mr. Ruppersberger. Let me ask you this: Where do we go now? 
I mean, we need this.
    Secretary Bolton. Absolutely. Absolutely.
    Mr. Ruppersberger. In general, would you admit we do need 
this capability?
    Secretary Bolton. Yes, sir.
    Mr. Ruppersberger. Where do we go now? Do we go with a new 
platform? I mean, where is the next move?
    Secretary Bolton. The move is ongoing right now, as we 
speak. As you know, I have a stop work for 90 days. At the 60-
day point, the contractor, the prime, comes back to me and 
tells me what the alternatives are--platforms, meeting the 
requirements, cost schedule performance. And I am waiting for 
that.
    Mr. Ruppersberger. But based on your expertise or anybody 
else on the panel, do you feel that in order to do what we need 
to do, we need to go to another platform that can handle this?
    My time is up, Mr. Chairman? Oh, okay.
    Secretary Bolton. There is a high likelihood of that, but 
as to which platform, I do not know.
    Mr. Ruppersberger. But then if we do go to another 
platform, how far behind does that put us, and how much more 
money is that going to cost? A lot more?
    Secretary Bolton. I don't know the answer to that. It will 
be more time, and it will be more money, but I don't know.
    Mr. Ruppersberger. Well, what I am asking, and, again, I am 
not on Armed Services, I am on the Intelligence Committee----
    Secretary Bolton. Yes, sir.
    Mr. Ruppersberger [continuing]. I am asking that there be 
an evaluation of this whole process to find out why we are 
where we are now, why we didn't anticipate that, do we have the 
proper expertise who is there to put together the program that 
was necessary? When the contract was there, we had to stop at 
90 days.
    So we can't continue to make these mistakes. I mean, we 
need intelligence, and we need these capabilities. So I really 
hope that there would be an evaluation of this, where we go. In 
the meantime, we need to focus.
    I have one question that is entirely different from this, I 
have to get this out. This is a staff question.
    Mr. Weldon. Will the gentleman yield before he asks his 
final question?
    Mr. Ruppersberger. Yes.
    Mr. Weldon. Would you at some point in time explain why the 
change was made from the requirement of 9 Gs to 16 Gs?
    Secretary Bolton. Yes, sir. The original interpretation by 
all the design teams was that when the 16 Gs was put in there, 
it was for the seat, for the survivability of the crew members, 
and that is understandable. When we got into the design and 
asking the question again, it was, ``No, 16 Gs for the entire 
aircraft because we have racks in there and we have other 
things hanging in the aircraft. And if we can beef those up so 
that if we do have a crash, we won't have projectiles flying 
around and injuring the crew.''
    Okay. Well, that is no longer standard for any commercial 
aircraft, and that drove the weight up.
    Mr. Ruppersberger. Thank you. One of my concerns when I 
looked at this in the very beginning stage was that the other 
alternative, the Gulfstream, has a longer ability to stay in 
the air, which I thought from an efficiency point of view. Was 
that ever considered, the duration of the ability to stay up?
    Secretary Bolton. Quite frankly, we have a requirements to 
loiter for X number of hours. However, in this case, when we 
loaded the Gulfstream that was proposed, we essentially 
couldn't' fly the aircraft; we were beyond the structural 
limits. So you couldn't fly at all.
    Mr. Ruppersberger. Well, I understand that. I hope that we 
learned so we can move forward, and whatever we do, we do it 
quickly and we do it the right way. And, again, the reputation 
that I talked about, I haven't observed you enough to find out 
whether you do do it on the cheap. Sometimes it is good, 
sometimes it is bad, but you want to do it right.
    Secretary Bolton. Yes, sir.
    Mr. Ruppersberger. And you get what you pay for when we are 
dealing with this.
    Secretary Bolton. The emphasis is on doing it right.
    Mr. Ruppersberger. All right. Just one question, Mr. 
Chairman; I have to get this on record. It is no secret that 
Congress has concerns over transformation satellite 
communications to provide the bandwidth for future military 
communications. Does ACS depend on TSAT for its bandwidth to 
disseminate data collected on the platform? And if so, is DOD's 
plan to mitigate risk if TSAT fielding is delayed?
    The House cut $40 million from TSAT in fiscal year 2006, 
and the Senate cut $250 million.
    Secretary Bolton. You want to take it? Go ahead.
    General Fast. Thank you, sir. We are not dependent upon 
TSAT. We do have mitigation strategies in place. ACS was not 
designed initially to depend on that capability. There are 
other options that are available to us, a combination of 
military as well as commercial options. We have a program that 
is in play right now, a multi-role tactical common data 
linkage, as you are aware, that should also help us mitigate 
any slippage or cessation in the other program. So we are not 
viewing that as being a showstopper for us for ACS in terms of 
communication.
    Mr. Landon. If I might add a little bit more to that 
comment. I agree with the general that ACS is not dependent on 
TSAT, but we are looking at the ability for these big 
collection programs, the sensor programs, to be able to bring 
that information and data back to the CONUS so we can process 
it. Gives us a smaller footprint in theater, allows us to do 
our processing back here and then forward the process data. And 
so the idea of being able to reach back is an extremely 
important part of our future programs.
    Mr. Weldon. I thank the gentleman for his questions.
    The gentleman from New York, Mr. McHugh, is recognized.
    Mr. McHugh. Thank you, Mr. Chairman. As a 13-year member of 
the Armed Services Committee, it is a new experience for me to 
be in this room with a number of the Intelligence Committee 
where I have standing today. So if I seem confused, it is not 
just the complexity of this issue, it is the dual hat situation 
which I am in.
    Most of the questions that I had have been asked. I am not 
sure they have been answered or certainly answered in the way 
in which I have come to grips with this, but let me just pull a 
point or two from various places.
    Mr. Secretary, did I understand you to say that the 16 Gs 
standard was something of a surprise and that added to the 
cost?
    Secretary Bolton. Well, surprise from the standpoint of it 
is for the entire aircraft, not just the seats in the aircraft.
    Mr. McHugh. But don't we have platforms up there right now, 
the RC-135, the EP-3 and others, that are at 16 Gs crash 
standard? I mean, it is a military standard, is it not? I am 
surprised why apparently you all were surprised.
    Secretary Bolton. Well, remember that the going in position 
was use a Commercial of the Shelf (COTS) aircraft, which meant 
a commercial aircraft. That is not standard for commercial 
aircraft.
    Mr. McHugh. But I am confused, who should have known that? 
Who should have understood that going into the contract phase 
that you obviously had a commercial platform picked by the 
contractor that couldn't meet a standard that the military was 
going to impose upon it?
    Secretary Bolton. Well, if you are the contractor and I 
will tell you I am going to use a COTS aircraft, FAA-approved 
aircraft, and I want 16 Gs in, what would you assume? FAA 
doesn't do 16 Gs.
    Mr. McHugh. Well, but then you weren't clear enough. Can we 
agree on that?
    Secretary Bolton. Absolutely. I agree with that.
    Mr. McHugh. Well, in that regard, let me read something, a 
quote here, from the Army program executive officer responsible 
for the ACS. He stated, ``In hindsight, the Army should have 
done more detailed design work before awarding the SDD contract 
to understand the implications of the airframe medications 
essential to accommodate power cooling and cabling for these 
size payloads.''
    Would you agree with that?
    Secretary Bolton. He and I discussed that, and the 
reference on there is absolutely right: hindsight, 20/20 
hindsight. Perfectly agree with it. But given----
    Mr. McHugh. You and I just agreed upon the fact that the 
Army perhaps wasn't as clear as they should have been on 16 Gs. 
What parts of this challenge that we are facing right now were 
inexplicably brought upon you?
    Secretary Bolton. Well, I would go back in terms of a 
solution, because there are a number of area, whether you talk 
16 Gs, whether you talk about the cabling and a number of 
others. I think if you sit down at a phase before this with at 
least three of the five or six communities talking and really 
going from the operational requirements--and please don't get 
me wrong, I am not challenging the operation requirements. They 
are what they are, and the operators need that.
    What I am saying is we need to do a little bit more work in 
understanding what those mean from a technical requirement 
standpoint. And the only way you do that is to do more detailed 
work up-front with people who understand how to do that. And in 
order for those people to understand it, they all need to be 
trained with the right tools and have experience. We haven't 
done that for at least two of those communities.
    So it doesn't surprise me on programs like this that are 
very complex that you have misunderstandings. And my push, at 
least for the Army, is to stop that by making sure that our 
requirements community--and you can begin to see that down in 
Fort Monroe in our Futures Center--have acquisition types in 
there with the requirement types, that they get some education 
and training as to how to talk to one another so we don't have 
these misunderstandings.
    Mr. McHugh. Well, I sure agree with that. I think you would 
agree, based on your comments a few moments earlier, I believe 
it was to Mr. Ruppersberger, that you probably--and I don't 
want to prejudice this--but you are probably going to have to 
change platforms. That is a big misunderstanding on a design 
award like this. So we have got to start being very, very clear 
whether you are talking about 16 Gs or cabling size or 
whatever. It is a terrible situation.
    And let me say for the record, I am not attacking you in 
any way on your action on the stop work. I don't see what else 
you could have possibly done, and I commend you for that. And 
as you noted earlier, perhaps under previous systems it would 
have taken many more months, maybe years, but it is still a 
huge problem.
    Let me ask you: What is the project termination cost? Have 
you had a chance to look at that?
    Secretary Bolton. Yes. I would hesitate to give you a cost, 
not that I don't have one. And here is why: If I have to 
terminate this contract--I am not terminating the requirement, 
that stands, but this contracted effort--the letter that I sent 
out asks for a proposal from the contractor. And if I give you 
what I think it is, I think that contractor would put me in an 
interesting position when I start negotiating what the costs 
ought to be. But I do have a handle on what it should be.
    Mr. McHugh. Well, maybe we can talk offline.
    Secretary Bolton. Yes, sir, we can do that.
    Mr. McHugh. You got me on that one. I don't disagree with 
that. Probably flashes back on my second question as to what 
the contractor liability is here, if at all, in terms of----
    Secretary Bolton. We go along the same lines; yes, sir.
    Mr. McHugh. See above? Okay.
    Secretary Bolton. Yes, sir.
    Mr. McHugh. Thank you, Mr. Chairman. I yield back.
    Mr. Weldon. Thank the gentleman for his questions.
    The gentleman from New Jersey, Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. Although it is an honor 
to sit up here on the upper tier in the Armed Services 
Committee, I must say, I don't envy you if you have to put up 
with this sort of acquisition stuff frequently.
    I am astonished that it is written here how the electronics 
package would be fitted into the airframe was deferred until 
after the contract was awarded, that the design was not frozen, 
continued to add requirements, evidently: Flight duration, 
number of black boxes, number of workstations, number of crew, 
acceleration standard. Those are some pretty basic things that 
should be in place before the contract is awarded, it seems to 
me.
    And then when the test and evaluation (T&E) folks raise 
these serious questions, it takes, by my calculation, 21 months 
before a stop work order is issued.
    Have you seen this sort of thing before, Mr. Chairman? 
Well, maybe we ought to--maybe this is a job to call in Donald 
Trump or Martha Stewart.
    Well, let me get to my question.
    Mr. Laux, you called for a couple of tens of millions of 
dollars for Research, Development, Test and Evaluation (RDT&E) 
funds to conduct an analysis of alternatives, and I want to 
find out where we are going from here. This would be for EP-3 
aircraft or successors. And in fact you go so far as to mention 
potential joint programs.
    Now, I am a little surprised that given your experience 
here you would be talking about joint programs. As an outsider, 
as a layman, in theory, I find the idea of these joint programs 
attractive, but I wonder whether the jointness has provided any 
advantage here and whether in the future, for what we are going 
to do next, if we are concerned about creeping requirements and 
changing numbers of workstations and acceleration standards and 
so forth, whether that is improved, whether control over that 
sort of thing is improved with a joint program or not.
    Mr. Laux. Yes, sir. The reference to the joint program 
recognizes the fact that the ongoing Quadrennial Defense Review 
may in fact report out in this area with a recommendation along 
those lines. The suggestion that the service needs to pursue an 
analysis of alternatives is to address all the potential 
candidates, sort of relook at the playing field of what the 
ongoing programs and potential future programs could bring to 
bear in light of the hindsight that we have now with where the 
ACS is in terms of capability and affordability.
    I would like to be clear that from our perspective, at 
least, the requirement has not been a moving target. How the 
contractor has chosen to address the requirement has been, but 
the requirement has been set, certainly from the Navy's 
perspective, since we first started working with the Army in 
this area.
    Mr. Holt. If it had been more joint--I mean, I gather this 
is sort of, not truly a joint program. If it had been more 
joint, would you have been more on top of the contractor to 
prevent his creep, this mission creep, I mean, the design 
creep?
    Mr. Laux. The program is not yet joint in that the Navy has 
not formally signed up to the acquisition documentation and the 
review process, to that end. This was an Army program, it is an 
Army program. The Navy intends to join this program, and we 
have turned in the President's budget request to reflect that.
    Mr. Holt. All right. Thank you.
    Well, let's see, turning back to Mr. Landon, as I 
understand it, the stop work really applies to everything here, 
even though the sensor work, the various packages on board, 
that work was going along all right. Doesn't it make sense to 
continue that work? Do I misunderstand? Has that been stopped 
also? If so, shouldn't that be allowed to continue so that you 
will be closer to your understanding of what to do if and when 
you have to change aircraft?
    Mr. Landon. Yes, sir. The stop work was issued by the Army, 
and so the conditions of the stop work--I think it would be 
better if Mr. Bolton commented on that particular aspect.
    Mr. Holt. Fine. Let's ask Mr. Bolton then.
    Secretary Bolton. Yes, sir. With regards to the black boxes 
and the avionics of it, no, I stopped everything. And the 
reason was if we don't understand the requirements well enough 
to go into the detailed work for the boxes, why I am doing 
stuff on the boxes? Until we really understand what is driving 
the design of those boxes----
    Mr. Holt. I think because you know what the requirements 
are for interceptions for video, for whatever sensors----
    Secretary Bolton. No, sir. No, sir. No.
    Mr. Holt [continuing]. And surveillance you will be doing.
    Secretary Bolton. No.
    Mr. Holt. I thought those requirements were pretty well 
set.
    Secretary Bolton. The operational requirements are set.
    Mr. Holt. The intelligence folks and others had set those 
requirements.
    Secretary Bolton. No, sir. No, sir. The operation 
requirements are set. The detailed electronic technical 
requirements are not. I understand what the operator wants, 
written that down, that hasn't changed. I am not into the 
detailed work of drawings, putting circuits together, running 
cables, and what we have found as we got into that is that we 
did not understand the requirement. Well, if I allow the boxes 
to continue today, I could wind up in several months with 
something that doesn't fit the requirements as I understand 
this better.
    So my position was, everybody stop. You leave enough folks 
in there to figure out how we got here and what are good 
alternatives for the future, which will include all of the 
work, platform as well as the payloads.
    General Fast. I just want to add something, sir, if that is 
all right.
    Mr. Holt. Please.
    General Fast. As the secretary said, all options really are 
on the table, and everything is going to be examined. But that 
said, we know, at a minimum, we are going to have a slippage. 
In the meantime, as you have heard from our Navy colleagues and 
from us, we are asking for some ability to modernize the 
existing fleets that we have with our Guardrail Common Sensor 
and our Airborne Reconnaissance Low and the EP-3.
    In that regard, many of the technologies that we will ask 
to have modernized are the same technologies that we have in 
the ACS Program. And so if we were to receive funding for this 
modernization, some of the benefits of the modernization could 
spill over, could spiral over into the ACS Program, so you 
wouldn't have, from a technology development standpoint, a 
total cessation of work.
    Mr. Holt. But the same people would be doing that work 
under a new contract or a modified contract; is that----
    General Fast. Sir, I can't say that it will be the same 
people, but the technology would be developed.
    Mr. Holt. Right. That would be an option in terms of the 
contracting of it.
    Mr. Chairman, I yield back my time with my sympathy. 
[Laughter.]
    Mr. Weldon. We thank the gentleman.
    Mr. Holt. Thank you, sir.
    Mr. Weldon. Welcome to reality, and we invite him back 
anytime to help us in the oversight of many programs where we 
have similar problems.
    The distinguished gentleman from Texas, our financial 
wizard, is recognized for whatever time he might consume.
    Mr. Conaway. Thank you, Mr. Chairman, appreciate that.
    Gentlemen and lady, thank you all for coming this 
afternoon. Your previous answer may have answered my question.
    Looking at the overall ACS Program, you expect to have 
certain, what I refer to as, choke points. One of those would 
be whether or not you get the airplane off the ground. We kind 
of beat that one to death today, and that would be a pretty 
significant choke point.
    Looking at the rest of the system, do we have other 
equivalent, ``Oh, good grief, how did we miss that kind of 
choke point in this system,'' and if that is the case, are we 
going to--and I hope the answer is yes--are you going to relook 
at the entire process to make sure that you have addressed 
those and that we are aware of. A year ago, whenever this was 
all going on, everybody said, ``Look, the airplane we have 
picked only has 3,000 pounds of excess capacity.'' What is the 
total capacity or weight load of the aircraft? Is 3,000 pounds 
10 percent, 20 percent extra?
    Secretary Bolton. It is probably less than 10 percent, 
closer to 5 percent.
    Mr. Conaway. Okay. So we have got 5 percent tolerance on 
the weight, and we are all sort of, ``Okay, do we go forward?'' 
So the idea is that if you did come across other things that 
you don't really want to sit--by the way, thank you for your 
straightforward answers. Appreciate the straightforwardness of 
your answers, but are there other things in this overall ACS 
Program----
    Secretary Bolton. I have had the same thoughts.
    Mr. Conaway [continuing]. That we will drag you back in and 
harass you again for?
    Secretary Bolton. Well, that is quite all right. I should 
be wire brushed. No, I ask the same question so that as the 
teams are working over the last month and this month, that 
question will be asked by me when the team comes back in. I 
look at this as one thing but are there other things that we 
need to be looking at that could cause a problem. Let's 
mitigate those things now rather than later. And I don't know 
what they are.
    And I am also challenging some of the interpretation of the 
operational requirements, so we really understand if the 
operator really needs it, because it makes a difference on the 
battlefield. Fine. The operator is saying, ``Well, that is what 
technology tells us we can get. Do we really want to pay for 
that?'' So we will be looking at everything--everything.
    Mr. Conaway. And one last final question: You have got a 
stop order on the entire project. Do you anticipate a full 
release of the entire stop or a staged----
    Secretary Bolton. It really depends on what the contractor 
comes in and gives me the middle of next month. It is a 90-day 
stop work. At the 60-day point, they come see me, and so in the 
middle of December we will make a decision, maybe earlier 
depending on what we get from the contractor. We had 360 people 
working it. We are down to 75 to do this work for me, and 
obviously I am concerned about that team, the folks who have 
been farmed out to other areas right now.
    Mr. Conaway. All right.
    Thank you, Mr. Chairman. Yield back.
    Mr. Weldon. I thank the gentleman. We are going to do 
another round if members have questions. I just have one 
additional one, and we will put some in for the record, which 
we would ask you to answer.
    Secretary Bolton, you have hit around this but I don't know 
whether you have actually directly answered it. I know the Navy 
has suggested it. Is it the Army's intent to accomplish another 
analysis of alternatives for the ACS mission or not?
    Secretary Bolton. It is not planned now, but I will raise 
that when I get back.
    Mr. Weldon. Thank you.
    Secretary Bolton. Yes, sir.
    Mr. Weldon. I will go to Mr. Abercrombie.
    Mr. Abercrombie. I am still having some difficulty with 
this. When I said to you before this seems to be contractor 
driven, do you recall?
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. But everything that has been said since 
then leads me to that same conclusion. Now, what I mean by that 
is, that if the platform, if the vehicle, if the frame, 
whatever the correct terminology is, is incapable of dealing 
with the requirements that are being sought, whether it is by 
the Navy, by addition or inclusion, another set of conditions 
that you think need to be met, if military standards, by 
definition, are different than commercial standards, one would 
think going back to what we have been trying to do here for a 
number of years here in the committee is where you can find 
commercial products, or I think the phrase is, ``off the 
shelf''----
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie [continuing]. That can be successfully 
integrated with military requirements, so much the better. That 
is grand.
    If you can take like with the--and we have seen stuff that 
increased in cost before--it slipped my mind now--the 
submarines, Advanced SEAL Delivery System (ASDS), that when you 
went from batteries and you had to change the actual mode of 
propulsion, well, the cost increased enormously. But we came up 
with the money for that because the people came back and said, 
``We are changing everything, and here is why we are changing 
it, and we would like you to back us up on this.'' And we did.
    And they changed numbers of people as a result. You know, I 
am sure, from the Navy side. I am just drawing a parallel here. 
I am not trying to draw a comparison or an analogy, but I am 
drawing a parallel.
    I think the committee is perfectly capable of dealing with 
significant design changes and significant vehicle 
modifications if it is required for something like a propulsion 
system that was thought to be adequate and turns out to be not 
only inadequate but actually irrelevant to what the mission now 
becomes and so on. So that is not a difficulty.
    Here, though, particularly when you go over the transition 
from the early models to what we want to get to, I still cannot 
comprehend how the contractor is not in charge if you can see 
or I can see or Mr. Holt could see, Dutch could see that, 
``Wait a minute, you are not able to--how the hell are you 
going to take this commercial? How are you going to take this 
Dodge viper and turn it into a Bonneville salt flat sound 
barrier breaker?'' They are both fast, they both look pretty 
slick and all that, but one's clearly not built to do that for 
the kind of speed required.
    So, all right, I will have to accept the fact that you are 
going through all this now and you are saying, ``Well, if we 
only knew now what we knew then.'' Well, I still don't 
understand why you didn't know then what you know now.
    But accepting that for the moment for our discussion's 
sake, the contractor can't do this with the frame or the 
vehicle, at least this is my understanding. Now, there are 
liability implications, I presume; maybe, maybe not. What we 
need to find out here, do you get to say to the contractor 
right now then, ``You guys said you could do something. You 
can't do it. We are getting shut of this.''
    Secretary Bolton. I haven't said that yet.
    Mr. Abercrombie. That is not what I asked. Can you?
    Secretary Bolton. I could, yes.
    Mr. Abercrombie. Okay. And that is tough to the contractor.
    Secretary Bolton. It is tough, but I have done it on some 
of the other programs.
    Mr. Abercrombie. Okay. Then I remember that too. So there 
is a time sensitivity here.
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. And if that needs to be done, then do it, 
is my view. If it needs to be done, then do it. Let's not draw 
this out and prolong the agony.
    Secretary Bolton. Right. Right.
    Mr. Abercrombie. Now, there will be a dollar consequence to 
that, I understand that. The sooner we know that, the better 
off we are going to be.
    Now, if you make the change, and my guess is you are going 
to have to make this change, I am still not clear and I still 
think the chairman needs to get answer, both chairmen need to 
get answers here on, if there needed to be a change, why it 
wasn't brought to our attention.
    I know both of these folks. I know Chairman Weldon better 
than Chairman Wilson, but I know both of them from my 
experience on the committee. You are not going to shock them by 
coming to say to them, ``You know, I think we have got to go in 
another direction. We can't make what we wanted to do, and here 
is what we think needs to be done.'' I think what upset them as 
well as other members is when we have to drag it out of the DOD 
or constituent parts because, as you put it, some people look 
at this as a failure.
    Now, my understanding of the scientific method is, is that 
you do experimentation and replication and duplication to find 
out whether you can do it. And when you find out you can't, 
that is not a failure, that is a trial, because you are not 
wasting time, you are not going off on a direction, you are not 
alchemists, right?
    Secretary Bolton. True.
    Mr. Abercrombie. You are not trying to get gold out of--
whatever the classic alchemy is, I guess, gold out of whatever 
the hell you get it out of.
    Secretary Bolton. Lead.
    Mr. Abercrombie. Lead, yes. So that is not going to be 
seen--certainly by this member it is not going to be seen as a 
failure. Failure to me is when you don't acknowledge the 
reality and don't bring it to our attention, because we are 
dependent on your professionalism, we are dependent on your 
evaluations of things. And if we have to find out about it by 
default, then that is failure, in my judgment.
    Secretary Bolton. Right.
    Mr. Abercrombie. So my point here and my question now then 
is, is it possible for--will there be a significant cost 
increase, and do we have to go to another platform entirely? I 
expect the answer is, yes.
    Secretary Bolton. The answer is, yes. I don't know how much 
nor how significant.
    Mr. Abercrombie. Okay. So the schedule is bound to slip, 
right?
    Secretary Bolton. It has already slipped.
    Mr. Abercrombie. That is right. Bound to slip further, I 
should have said.
    Secretary Bolton. Yes, sir.
    Mr. Abercrombie. Well, then don't you think that you have 
to come to a determination as quickly as possible and get that 
to us?
    Secretary Bolton. Absolutely.
    Mr. Abercrombie. Okay.
    Thank you, Mr. Chairman.
    Secretary Bolton. But in order to do that, Mr. Abercrombie, 
I really do need this team to come back to me. They are the 
ones who are going off and answering in detail all the 
questions and the other members, and particularly the chairman, 
on what are the alternatives. And this contractor is not stuck 
with that platform. He has already gone out to other 
contractors and other platforms. I have asked him to do that. 
He is looking at all platforms.
    Mr. Abercrombie. Okay. I have got to quit now, because I 
still don't understand why the hell that wasn't done in the 
first place.
    Secretary Bolton. When you say, ``first place,'' sir, I am 
not sure what that means.
    Mr. Abercrombie. Okay. Well, we can go at that another 
time.
    Secretary Bolton. Okay.
    Mr. Abercrombie. I have used up my time. Thank you.
    Mr. Weldon. The gentleman has as much time as he would 
like, as he knows.
    The gentlelady is recognized, the chairwoman.
    Mrs. Wilson. Thank you, Mr. Chairman. I yield my time to 
the gentleman from Kansas.
    Mr. Tiahrt. I thank the gentlewoman.
    A requirement is a snapshot in time, and we are looking at 
something that is going to be around for a long time--20 years 
you said. If you look at the KC-135, it has been around since 
Eisenhower.
    Secretary Bolton. Yes.
    Mr. Tiahrt. And so it has been a long time. This is a 
Blackberry, and if you look 10 years ago, we wouldn't have 
realized that a threat could be a data stream coming through 
our phone lines. We have got future threats out there that are 
going to drive additional requirements. And I think that is 
something that I heard earlier, that the requirements weren't 
established. Well, it is always nice to have requirements firm 
when you buy a program, but when you are looking at the mission 
that this aircraft, this airframe has, this is not a stable 
requirements baseline because of things like this. And we don't 
know what we don't know on requirements.
    So my point is, we are going to have to have some room in 
this airframe because there are other threats out there. And 
that is on the front end of it. But on the back end, you have 
got more and more people that you are going to be feeding this 
stuff to, and this room wouldn't hold them all. And they will 
need it, and they are going to send it to other people that 
really need it.
    So I just think that to think that we don't have an 
established baseline, I think we need to have some room in 
here, be smart about this, so that we can have growth in the 
future.
    Now, the schedule I have here says that the plan was to 
have an First Unit Equipped (FUE) or an Initial Operational 
Capability (IOC) in about the middle of 2010.
    And, Mr. Laux, I think you may--or maybe it was the 
admiral, talked about the MMA would be available in 2013?
    Mr. Laux. Yes.
    Mr. Tiahrt. You know, they have got a move rate for the 737 
about every day. They move from one jig to the next jig every 
day. That means they pump out about 21 to 25 of these airplanes 
every month. There is a firing order and to get slotted in 
there for a firing order or put it in on this production line, 
it is already militarized, great advantage, I think you can 
save schedule. And we keep talking about moving the schedule to 
the right. If the tent pole is the Lowest Replaceable Units 
(LRUs), the black boxes, then that is one thing, but if it is 
an airframe, you can gain time by getting into an existing line 
that already is militarized.
    Now, Mr. Laux, you mentioned a couple of times in your 
testimony that was submitted for the record that this program 
should be evaluated from a joint con-ops and a potential joint 
platform alternatives. So I am convinced that you believe that, 
but would you tell me why you had that in your testimony?
    Mr. Laux. Yes, sir. We are aware that the Quadrennial 
Defense Review that is going on right now is likely to address 
this entire intelligence collection area. We are trying to 
position ourselves to open up new dialogue with the Air Force 
and with the Army, with the benefit of the hindsight and the 
knowledge of where we are in this program and other needs that 
can be addressed that we expect to be the topic in the QDR.
    Mr. Tiahrt. Well, does the Navy have a backup plan? Is the 
MMA a backup plan or is lengthening out the EP-3's service 
time, do you have a backup plan for this or is this--we are 
going to go forward with this set of requirements for this 
mission? Is there a backup plan?
    Mr. Laux. Admiral Clingan.
    Admiral Clingan. Congressman, we do in fact have a backup 
plan. We have a bridge plan to take the EP-3 and sustain it. 
The circumstances we find ourselves in now causes us to look at 
sustaining it through 2017 now, or so.
    In regard to the way forward, we are looking with interest, 
of course, as to how the contractor comes back and provides 
solutions or options in regard to making our way through the 
briar patch that currently faces the ACS. And as Mr. Laux has 
indicated, because those challenges have had cost and schedule 
implications, it opens the door, thoughtfully, for us to do an 
analysis of alternatives, which would embrace other platforms, 
as you have suggested.
    So we are looking to sustain the EP-3 and to go forward 
with open eyes in regards to what acquisition program will in 
fact meet our operational requirements.
    Mr. Tiahrt. Well, I hope there is some expediency here, 
because these airframes as they age, there is more risk to the 
crews. And, you know, going back to the tanker, I mean, the 
average age there is about 45. I don't know any of us that come 
to work in a 1960 automobile, but if you did and it broke down, 
you could pull over to the side of the road. When you have got 
an EP-3 that breaks down, it has only got one place to go and 
the forces of nature take over.
    So I am very concerned about this, and I think that the 
idea of having existing production lines that can help compress 
the schedule can save costs, because every year, inflation 
every year adds to costs, and if you back this far enough to 
the right, 2013, 2017, that all adds to the cost as well. So I 
want to be careful that we are not penny wise and pound 
foolish.
    And this fence of time that we look through, we are looking 
through one knothole now. But we need to step back and see what 
other knotholes are there that we should be looking through. 
And I want to plead with you to be--let's be dollar-wise here 
as well.
    Thank you, Mr. Chairman.
    Mr. Weldon. Thank the gentleman.
    The gentleman from Maryland is recognized. Do you have a 
question?
    The gentleman from Texas?
    Does the gentlelady have any questions?
    Mrs. Wilson. Mr. Chairman, I have two questions to submit 
for the record.
    Mr. Weldon. Without objection.
    I want to thank all of our--does the gentleman, Mr. 
Abercrombie, have any questions?
    I want to thank you all for your appearance today, and, 
again, I hope you take our questions in the spirit in which 
they are intended.
    Secretary Bolton. Yes.
    Mr. Weldon. This committee has been as supportive as any 
committee in the Congress for our military. We have gone to the 
wall, sometimes at odds with our own President and with the 
leadership over at the Pentagon to give you more than what is 
requested, whether it is up-armoring Humvees or whether it is 
additional personal protection for the troops or additional 
manpower and end strength.
    We will continue to do that, but we also have a fiduciary 
responsibility to the taxpayer, and that requires us to play 
the oversight role and ask the tough questions. And this is not 
a good news story right now.
    You have heard the Intelligence Committee basically say 
that we need this capability yesterday. We are not going to 
have it yesterday. We are not even going to have it tomorrow. 
It is now going to be pushed out. That is a bad news story that 
we have to understand what our options are now to move forward.
    And, Secretary, and all of you, we don't question your own 
abilities but we do seriously question where we are going so 
that this program can be put back on track and in the end give 
our troops the capabilities that we need in the 21st century.
    So we will provide additional questions for the record. 
Thank you for your appearance and thank you for the service to 
the country.
    The hearing stands adjourned.
    [Whereupon, at 5:45 p.m., the subcommittees were 
adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            October 20, 2005

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 20, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3589.001
    
    [GRAPHIC] [TIFF OMITTED] T3589.002
    
    [GRAPHIC] [TIFF OMITTED] T3589.003
    
    [GRAPHIC] [TIFF OMITTED] T3589.004
    
    [GRAPHIC] [TIFF OMITTED] T3589.005
    
    [GRAPHIC] [TIFF OMITTED] T3589.006
    
    [GRAPHIC] [TIFF OMITTED] T3589.007
    
    [GRAPHIC] [TIFF OMITTED] T3589.008
    
    [GRAPHIC] [TIFF OMITTED] T3589.009
    
    [GRAPHIC] [TIFF OMITTED] T3589.010
    
    [GRAPHIC] [TIFF OMITTED] T3589.011
    
    [GRAPHIC] [TIFF OMITTED] T3589.012
    
    [GRAPHIC] [TIFF OMITTED] T3589.013
    
    [GRAPHIC] [TIFF OMITTED] T3589.014
    
    [GRAPHIC] [TIFF OMITTED] T3589.015
    
    [GRAPHIC] [TIFF OMITTED] T3589.016
    
    [GRAPHIC] [TIFF OMITTED] T3589.017
    
    [GRAPHIC] [TIFF OMITTED] T3589.018
    
    [GRAPHIC] [TIFF OMITTED] T3589.019
    
    [GRAPHIC] [TIFF OMITTED] T3589.020
    
    [GRAPHIC] [TIFF OMITTED] T3589.021
    
    [GRAPHIC] [TIFF OMITTED] T3589.022
    
    [GRAPHIC] [TIFF OMITTED] T3589.023
    
    [GRAPHIC] [TIFF OMITTED] T3589.024
    
    [GRAPHIC] [TIFF OMITTED] T3589.025
    
    [GRAPHIC] [TIFF OMITTED] T3589.026
    
    [GRAPHIC] [TIFF OMITTED] T3589.027
    
    [GRAPHIC] [TIFF OMITTED] T3589.028
    
    [GRAPHIC] [TIFF OMITTED] T3589.029
    
    [GRAPHIC] [TIFF OMITTED] T3589.030
    
    [GRAPHIC] [TIFF OMITTED] T3589.031
    
    [GRAPHIC] [TIFF OMITTED] T3589.032
    
    [GRAPHIC] [TIFF OMITTED] T3589.033
    
    [GRAPHIC] [TIFF OMITTED] T3589.034
    
    [GRAPHIC] [TIFF OMITTED] T3589.035
    
    [GRAPHIC] [TIFF OMITTED] T3589.036
    
    [GRAPHIC] [TIFF OMITTED] T3589.037
    
    [GRAPHIC] [TIFF OMITTED] T3589.038
    
    [GRAPHIC] [TIFF OMITTED] T3589.039
    
    [GRAPHIC] [TIFF OMITTED] T3589.040
    
    [GRAPHIC] [TIFF OMITTED] T3589.041
    
    [GRAPHIC] [TIFF OMITTED] T3589.042
    
    [GRAPHIC] [TIFF OMITTED] T3589.043
    
    [GRAPHIC] [TIFF OMITTED] T3589.044
    
    [GRAPHIC] [TIFF OMITTED] T3589.045
    
    [GRAPHIC] [TIFF OMITTED] T3589.046
    
    [GRAPHIC] [TIFF OMITTED] T3589.047
    
    [GRAPHIC] [TIFF OMITTED] T3589.048
    
    [GRAPHIC] [TIFF OMITTED] T3589.049
    
    [GRAPHIC] [TIFF OMITTED] T3589.050
    
    [GRAPHIC] [TIFF OMITTED] T3589.051
    
    [GRAPHIC] [TIFF OMITTED] T3589.052
    
    [GRAPHIC] [TIFF OMITTED] T3589.053
    
    [GRAPHIC] [TIFF OMITTED] T3589.054
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            October 20, 2005

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WELDON

    Mr. Weldon. Technology levels on the ACS program were much more 
mature at milestone B than the technology levels for FCS were at 
milestone B. In other words, the ACS program had much more 
``knowledge'' as GAO would say, going into milestone B than FCS did at 
milestone B. If this can happen to ACS, can it not happen to FCS?
    Secretary Bolton. Technology maturity was not the issue with ACS. 
Rather, the issue was requirement maturity below the Key Performance 
Parameters (KPPs) requirements. Fully developing Concepts of Operation 
(CONOPS) and mission threads by the requirement community in close 
collaboration with the acquisition, resourcing, testing, and 
sustainment communities before System Development and Demonstration 
(SDD) start would have yielded better SDD results.
    Mr. Weldon. You mention in your statement that ``while discovery of 
the weight issue at an even earlier point in the program's life would 
have been the preferred approach, it was simply not practical.'' Yet 
you later state that the ACS program ``experienced a decrement in 
funding during the CAD phase, forcing [the Army] to reduce the scope of 
the integration effort . . .'' Please clarify.
    Secretary Bolton. ACS experienced a decrement of $11.2 million 
during the CAD phase following termination of the Joint SIGINT Avionics 
Family/Low-Band Sub-System program, of which $4 million was passed down 
to the contractors ($2 million to each contractor). This caused the 
Army to reduce the scope of the CAD phase, specifically work related to 
airframe integration and antenna placement. Had we proceeded with this 
work as originally planned, it is possible--not definite--that we may 
have learned about the Space, Weight, Power and Cooling (SWaP-C) 
problems earlier than we did.
    Mr. Weldon. a. The issue isn't that the problem was discovered 
early in the SDD process. The issue is what changes need to take place 
in the ``process'' so that the ``preferred'' approach, as you say, 
becomes the ``mandatory'' approach. How do we prevent a $4 million 
dollar decision from having an $800 million consequence? How can we 
change the process?
    Secretary Bolton. The Department of Defense (DOD) 5000 series 
guidance has undergone several revisions during the earlier phases of 
the ACS program. ACS followed the processes as intended. On a program 
of this complexity, it may be worth the expense to go all the way to a 
Critical Design Review (CDR) as part of the earlier phase, rather than 
the SDD phase. However, I still believe a better understanding of the 
requirement, fully developed CONOPS and fully developed mission threads 
done by an educated/trained requirements community and thoroughly 
vetted with a trained resource, acquisition, test, and sustainment 
community will solve most ``ACS-like'' SDD problems.
    Mr. Weldon. b. Is it a matter of fixing existing policy or is the 
existing policy just not being followed?
    Secretary Bolton. See answer to ``a'' above.
    Mr. Weldon. After all this time, money and reviews, why did the 
fundamental design flaw that had such serious ramifications to the 
program go undetected? In other words, if you could do it all over 
again, what would you have done differently that could have prevented 
this situation?
    Secretary Bolton. The previous question's response of going to a 
full Critical Design Review may be the most logical way to prevent a 
recurrence.
    Mr. Weldon. What are the lessons learned in terms of robustness and 
quality of the requirements, design and milestone reviews?
    Secretary Bolton. See answers to questions 1, 2, and 13.
    Mr. Weldon. The committee understands that the weight issue first 
surfaced in December last year. Why is it going to take almost a year 
to get from problem identification to problem solution? Why wasn't a 
stop work order issued sooner?
    Secretary Bolton. The problem first surfaced in December 2004 when 
Lockheed found a potential weight bogey of 100 pounds above the 
structural limit of the airframe, several hundred pounds above what the 
Army had estimated was a ``worst case'' scenario for weight growth. The 
contractor explained to the product manager (PM) that this estimate was 
based on weight projections as Lockheed developed detailed Interface 
Control Documents (ICDs) with the airframe manufacturer (Embraer). The 
PM directed Lockheed to determine the extent of the problem, which 
meant that Lockheed had to develop elements of the design beyond what 
had been scheduled for that time period. In other words, Lockheed had 
to accelerate design work in order to fully and quickly understand the 
problem. Once enough was known about these design elements, Lockheed 
then had to accomplish engineering work to determine the actual weights 
of these design elements. Much of this work was completed by early 
April 2005. Lockheed then briefed the extent of the problem to the 
Program Executive Officer (PEO) and suggested several requirements 
trades that might allow continued use of the proposed airframe. The PEO 
asked Lockheed to study excursions using larger airframes in order to 
provide the Government sufficient insight to make a determination of 
the path ahead. In May, it became obvious that a schedule breach would 
likely occur, and possibly a cost breach as well. We reported this to 
the Department of Defense, and by mid-June I accepted the Navy's offer 
to conduct a full independent assessment of the program while the 
Program Manager (PM) studied larger aircraft options. Both the Navy's 
independent assessment and the Army's study of larger aircraft 
concluded by late August, by which time I determined that the PM should 
present several courses of action and a recommendation to a formal Army 
Systems Acquisition Review Council for decision. This we accomplished 
in early September. Shortly thereafter, I directed a Stop-Work Order on 
the contract and directed Lockheed to return in 60 days with several 
options for a path forward.
    Mr. Weldon. Assuming that the contractor can still use the current 
platform by reducing payload weight and delaying some ACS requirements, 
how much room would there be in terms of size, weight, and power before 
the payload would once again outgrow the platform?
    Secretary Bolton. The proposed platform is limited in SWaP-C 
margins. If we were to proceed down the path of using this airplane, it 
would likely require costly weight reduction upgrades to the sensors, 
leveraging the benefits of Moore's law (the theory that computing power 
generally doubles every 18 months) wherever possible, and probably 
straying from the intended COTS-based sensor solutions to specially 
built hardware instead.
    Mr. Weldon. Who will be the final decision authority to determine 
what happens with the ACS program?
    Secretary Bolton. The decision to terminate or continue with the 
current contract rests with the Army, specifically with the Assistant 
Secretary of the Army for Acquisition, Logistics and Technology (aka 
the Army Acquisition Executive). Any decision regarding the disposition 
of the program itself (i.e., whether to terminate the program 
altogether) rests with the Undersecretary of Defense for Acquisition, 
Technology and Logistics (aka the Defense Acquisition Executive).
    Mr. Weldon. In reference to the RDT&E program costs, will there be 
a Nunn-McCurdy breach of the ACS program?
    Secretary Bolton. A Nunn-McCurdy breach seems certain. The extent 
of the breach won't be known until we make a final decision on a path 
forward.
    Mr. Weldon. The ACS is listed as a complimentary program to the 
Future Combat System program. Does the delay to the ACS program have an 
impact on the FCS program? If so, what?
    Secretary Bolton. The current Guardrail Common Sensor and Airborne 
Reconnaissance Low systems will be kept viable until ACS is fielded, 
minimizing any impacts to FCS.
    Mr. Weldon. Does ACS receive any funding from the FCS program? If 
so, what?
    Secretary Bolton. No, ACS receives no funding from the FCS program.
    Mr. Weldon. If one of the potential options is to change the 
requirements, how would reduced capability to store data on board 
impact the ability to meet other requirements, such as timeliness?
    Secretary Bolton. A complete engineering analysis would have to be 
done to determine those types of impacts. In your example (reducing on-
board storage capability), the impact would likely be felt more in 
terms of the volume of targets stored in the database than in the 
timeliness of the response. In other words, in the number of signals or 
images that could be handled in a given time.
    Mr. Weldon. What is the current requirement for on-board crew 
stations and is this one of the requirements that is being looked at 
for possible change.
    Secretary Bolton. The requirement for on-board crew stations, as 
stated in the Joint Requirements Oversight Council (JROC)-approved 
Operational Requirements Document of October 2003, is six (6). This 
takes into account the Navy's two additional work stations above the 
Army's original baseline of four. This is a prime area for weight 
reduction in terms of both equipment and personnel, and like all other 
requirements it is being reviewed.
    Mr. Weldon. In your testimony, you talked about breaking the 
``stovepipes.'' Specifically, ``. . . it is not only a matter of let's 
organizationally do something, but within those stovepipes it would be 
really neat if you would really educate, train and provide the right 
tools for those people. . . . in fact, in the Army, that is what we are 
trying to do right now, is to break those stovepipes down to make sure 
the requirements community, sitting with the resourcing community, 
sitting with the acquisition community from day one are looking at 
those operational requirements to try to understand what really are the 
technical and financial implications of trying to do that.'' Are you 
saying that these other communities (requirements and resourcing types) 
need to have a certification process similar to what the acquisition 
community currently has? Why is this so important? What specifically 
would you change if you could?
    Secretary Bolton. I am not sure a certification process is where I 
would drive this, although it merits consideration. However, I do 
strongly believe that some training and education is needed for our 
requirements, resourcing, and sustainment communities. These 
communities play key roles in the ``Big A'' process, which delivers 
capability to the field. Not ensuring these communities are trained/
educated and provided the appropriate tools, I believe is unwise and 
will continue causing problems like those currently experienced by the 
ACS. The need to address this training shortfall will increase as 
future systems become more integrated and information centric.
    Mr. Weldon. The ACS program had its milestone B review in July 
2004. The Future Combat System had its milestone B review in May 2003. 
If these ``stovepipes'' as you say, existed for the ACS program in 
2004, certainly they existed for the FCS program in 2003. How do you 
know that a similar issue like with what happened with ACS, not truly 
understanding the impacts of requirements, won't happen with FCS?
    Secretary Bolton. Unlike ACS, the FCS has enjoyed unprecedented 
communication, coordination, and integration among the requirements, 
resourcing, acquisition, testing, sustainment, and contractor 
communities. The result is an FCS program, which is maintaining the 
cost, schedule, performance baseline established by DOD.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH
    Mr. McHugh. What is the project termination cost?
    Secretary Bolton. [The information referred to is classified and 
retained in the committee files.]
    Mr. McHugh. What is the contractor liability here?
    Secretary Bolton. [The information referred to is classified and 
retained in the committee files.]

                                  <all>

</pre></body></html>
